HHS/OIG-Audit--"Review of Short/Doyle Medicaid Payment Rates, (A-09-91-00076)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Short/Doyle Medicaid Payment Rates," (A-09-91-00076)
October 25, 1991
Complete Text of Report is available in PDF format
(856 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit disclosed that the Medicaid rates set for Short/Doyle services exceeded
reasonable limits established by Federal law and regulations. Short/Doyle is
one component of the California Medicaid program serving the mentally ill. We
found that expenditures were 21 percent higher (or $3.6 million more) than reasonable
allowances under the Medicare program for the same or similar services. Also,
expenditures were 87 percent higher (or $9.5 million more) than the maximum
permitted under California's regular Medicaid program.